Audit of USAID/Cambodia’s Monitoring of
USAID-Financed Commodities Held in Customs

Audit Report No. 5-442-03-001-P

June 23, 2003




                Manila, Philippines
June 23, 2003


MEMORANDUM
FOR:            Lisa Chiles, Director, USAID/Cambodia

FROM:           George R. Jiron, Jr., Acting RIG/Manila /s/

SUBJECT:        Audit of USAID/Cambodia's Monitoring of USAID-Financed
                Commodities Held in Customs. (Report No. 5-442-03-001-P).

This is our final report for the subject audit. We reviewed your comments to the
draft report and included them in their entirety as Appendix II.

This report contains three recommendations. Based on your response to the draft
report, a management decision has been reached on Recommendation No. 3.
Please coordinate the final action on this recommendation with USAID’s Office
of Management Planning and Innovation. Based on your responses to the draft
report, we do not consider Recommendation Nos. 1 and 2 to have received
management decisions. Recommendation No. 2 is a monetary recommendation
involving questioned costs of $49,725. We request that you provide written
notice within 30 days relating to actions planned or taken to implement these two
recommendations.        Because Recommendation No. 2 is a monetary
recommendation, please comment on the potential monetary savings from
implementing the recommendation.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                              1
(This page intentionally left blank)




                                       2
Table of   Summary of Results                                                5
Contents
           Background                                                        5

           Audit Objective                                                   6

           Audit Findings

                  Has USAID/Cambodia ensured that                            7
                  USAID-financed commodities were tax exempt
                  and were promptly released from customs?

                            USAID-financed Commodities                       7
                            Subjected to Taxes and Customs Delays

                            Related Issue                                11

           Management Comments and Our Evaluation                            12

           Appendix I - Scope and Methodology                            15

           Appendix II - Management Comments                             17

           Appendix III – Summary of Taxes and Storage Charges Paid on       21
                          USAID-Financed Commodities for the Period
                          from October 2000 to March 2002.




                                                                         3
(This page intentionally left blank)




                                       4
Summary of    As part of its fiscal year 2002 audit plan, the Regional Inspector General/Manila
Results       conducted this audit to determine whether USAID/Cambodia has ensured that
              USAID-financed commodities were tax exempt and promptly released from
              customs. (See page 6.)

              USAID conducts its assistance programs in Cambodia under a Bilateral
              Agreement between the U.S. Government and the Royal Government of
              Cambodia.    The Bilateral Agreement provides broad tax exemptions to
              commodities brought into Cambodia in furtherance of USAID’s assistance
              programs. The Bilateral Agreement also provides for prompt release of those
              commodities from Cambodian customs. (See pages 7 and 8.)

              USAID/Cambodia has not ensured that USAID-financed commodities were tax
              exempt and promptly released from customs. Consequently, we recommended
              that USAID/Cambodia: (1) establish an action plan—with time frames and
              milestones—to work with the Royal Government of Cambodia to enforce the
              Bilateral Agreement’s provisions of tax exemption for and prompt release of
              USAID-financed commodities; (2) recover taxes and storage fees totaling $49,725
              paid by its implementing partners to the Royal Government of Cambodia in
              contradiction to the provisions of the Bilateral Agreement; and (3) conduct a
              review and recover any additional taxes or unreasonable storage fees that its
              implementing partners might have paid to the Royal Government of Cambodia for
              the importation of USAID-financed commodities for the period from April 2002
              through March 2003. (See pages 7 and 11.)


 Background   For 30 years, Cambodia was torn by civil strife and warfare, including the
              genocidal Khmer Rouge period. As a result, the country’s infrastructure was
              ravaged and its human resources decimated. The Paris Peace Accords of 1991
              effectively ended the many years of upheaval, thus opening the door for external
              assistance to Cambodia.

              In October 1994 the U. S. Government and the Royal Government of Cambodia
              signed the “Economic, Technical and Related Assistance Agreement” (Bilateral
              Agreement) to foster economic, social and national development in Cambodia.
              USAID conducts its assistance program in Cambodia pursuant to the provisions
              of this Agreement.

              However, in 1997, the U. S. Congress placed legislative and policy restrictions on
              assistance to Cambodia in response to a coup in that country. These restrictions
              resulted in severe cuts to USAID’s program in Cambodia. For example, USAID
              assistance to Cambodia plunged from $36 million to $17 million between fiscal
              years 1997 and 1998. Along with the sharp decline in funding, the Mission either
              suspended or stopped altogether, direct funding and assistance to the Cambodia


                                                                                           5
                  central government. With the easing of Congressional restrictions, USAID
                  assistance to Cambodia rebounded dramatically in fiscal year 2002 to $44 million.
                  However, USAID activities are still being funneled principally through non-
                  governmental organizations. The following chart illustrates how USAID
                  assistance to Cambodia fluctuated between fiscal years 1997 to 2002.1

                                                  USAID/Cambodia Funding For Fiscal Years 1997-2002
                                                                      (Unaudited)

                                             50
                       Millions of Dollars


                                             40

                                             30

                                             20

                                             10

                                              0
                      Fiscal Year                  1997       1998      1999        2000    2001      2002




                                                                         Obligations



                  USAID/Cambodia’s implementing partners import commodities such as medical
                  supplies, radio equipment and vehicles to carry out their USAID programs in
                  Cambodia. The Royal Government of Cambodia imposes import and other taxes on
                  imported commodities. Additionally, storage charges are imposed on commodities
                  held in customs beyond a certain period. We reviewed the process of importation of
                  USAID-financed commodities for the period from October 2000 to March 2002.


Audit Objective   The Regional Inspector General/Manila added this audit to its fiscal year 2002 audit
                  plan as a result of preliminary findings in the audit of USAID/Cambodia’s
                  HIV/AIDS program. That audit indicated USAID-financed vehicles had been held
                  in customs for more than a year before being released. USAID/Cambodia officials
                  requested that we conduct a separate audit of customs delays because they thought
                  the issue could involve its entire assistance program. This audit was performed to
                  answer the following objective:

                  •           Has USAID/Cambodia ensured that USAID-financed commodities were tax
                              exempt and were promptly released from customs?

                  Appendix I describes the audit’s scope and methodology.

                  1
                      These obligations include both Mission direct funding and field support funding.



                                                                                                             6
Audit Findings   Has USAID/Cambodia ensured that USAID-financed commodities were tax
Audit Findings   exempt and were promptly released from customs?

                 USAID/Cambodia has not ensured that USAID-financed commodities were tax
                 exempt and promptly released from customs. Rather, 3 of the Mission’s 21
                 implementing partners either paid taxes and/or incurred unreasonable customs
                 delays on USAID-financed commodities. The next section details these issues.

                 USAID-financed Commodities Subjected
                 to Taxes and Customs Delays

                 Contrary to the 1994 Bilateral Agreement, USAID-financed commodities were
                 taxed and/or unduly delayed at customs. This occurred for 3 of the Mission’s 21
                 implementing partners because USAID/Cambodia officials avoided addressing
                 the issues of taxes and customs delays directly with the Royal Government of
                 Cambodia. As a result, USAID activities were affected to the extent that USAID
                 funds were used to pay for taxes and customs storage fees instead of program
                 activities, and to the extent that the commodities could not be used for program
                 purposes while confined at customs.

                 USAID has conducted its assistance program in Cambodia pursuant to the 1994
                 Bilateral Agreement. In order to assure the maximum benefits to the people of
                 Cambodia from the assistance furnished by USAID, the Bilateral Agreement
                 contains several exemptions from taxes, duties and other levies. One such
                 exemption contained in Article III (1) states:

                        All property including supplies, materials, equipment, or funds
                        introduced into or acquired in the Kingdom of Cambodia used or to
                        be used in connection with this Agreement, or in furtherance of the
                        purposes, programs, projects and operations for which assistance is
                        made available pursuant to this agreement, by the Government of
                        the United States of America or by any person or entity, public or
                        private financed by that Government shall be exempt from any taxes
                        on ownership or use or any other taxes, investment or deposit
                        requirements, and currency controls in the Kingdom of Cambodia
                        and the import, export, acquisition, use or disposition of any such
                        property or funds in connection with this Agreement shall be
                        exempt from any tariffs, customs duties, import and export taxes,
                        taxes on purchase or disposition and any other taxes or similar
                        charges in the Kingdom of Cambodia.

                 Similar to the above provision on taxes, the Bilateral Agreement addresses the issue
                 of prompt release of USAID-financed commodities from customs. Specifically,


                                                                                               7
Article III (2) states:

          All property including supplies, materials, equipment, introduced
          into the Kingdom of Cambodia by the Government of the United
          States of America or by any person or entity, public or private,
          financed by that Government and used or to be used in connection
          with this Agreement, or in furtherance of the purposes, programs,
          projects and operations for which assistance is made available
          pursuant to this Agreement, upon arrival shall be exempt from any
          garnishment, attachment, seizure, or other legal process when the
          Government of the United States of America advises the
          Government of the Kingdom of Cambodia that such would interfere
          with the attainment of the objectives of the assistance program, and
          such property upon arrival in the Kingdom of Cambodia shall be
          kept safe and secure in customs or any import holding facility by the
          Government of the Kingdom of Cambodia and promptly released
          upon request into the custody of designated personnel of the
          Government of the United States of America or of the person or
          public or private entity financed by that Government, who shall be
          afforded full access to the facility to inspect the property as and
          when requested.

Contrary to Article III (1) of the Bilateral Agreement, the Reproductive Health
Association of Cambodia (RHAC), one of USAID/Cambodia’s 21 implementing
partners, paid import and other taxes totaling $31,277. The Royal Government of
Cambodia (RGC) taxed RHAC for the import of three vehicles and medical
equipment because it is a Cambodian non-government organization (NGO) and
not an international NGO. In our opinion, however, the exemptions in the
Bilateral Agreement clearly apply to RHAC as the commodities were to be used
in implementing USAID programs. In this particular case, USAID/Cambodia did
not directly address RHAC’s tax exempt status with the RGC. As a consequence,
rather than being used to provide direct program services, the $31,277 was used to
pay taxes. Appendix III summarizes the taxes paid.

Contrary to Article III (2) of the Bilateral Agreement, 3 of 21 implementing
partners reported that USAID-financed commodities were held in customs for
unduly long periods.2 For example, Population Services International imported a
Ford Pickup and a Ford Explorer [seen in the photo on the next page] under its
grant agreement with USAID. The RGC held these vehicles in customs for 388
and 470 days, respectively. The table on page 10 details customs delays and
associated storage fees paid by the three implementing partners. More detailed
information is found in Appendix III.

2
    For this audit we considered 30 days a reasonable period for Cambodian customs to process
    USAID-financed commodities.



                                                                                       8
       Photograph of a Ford Explorer imported by Population Services International
       and held in customs for 470 days. The photograph was taken in October 2002 at
       the recipient’s field office in Phnom Penh, Cambodia.

Implementing partners had to pay storage charges on the detained vehicles.
According to host government customs regulations, the Cambodian customs
authority allows seven days of free storage of commodities from the date the
shipping vessel arrives at port. Thereafter, there are daily storage charges. All
told, the three implementing partners that had commodities detained in customs
used USAID funds to pay $18,448 in such charges to the host government.

These detentions were caused by the host government’s decision to hold
international NGOs’ commodities in customs until each international NGO signed
a Memorandum of Understanding (MOU) with the host government, and because
USAID/Cambodia did not ensure that the Bilateral Agreement was followed.

In 1995, the Royal Government of Cambodia proposed that it sign a standard
MOU with each international NGO as a mechanism to register all international
NGOs operating in Cambodia. At that time, the proposed MOU included blanket
tax exemptions for international NGOs. However, as a result of Cambodia’s tax
reform efforts in 1997, the proposed MOU was revised to include taxation
provisions. International NGOs and some of their foreign government sponsors
objected to these and other provisions, and protracted negotiations involving these
and other parties ensued. In calendar year 2000, the Royal Government of
Cambodia finalized a standard MOU. One measure used by the RGC to ensure

                                                                                       9
international NGOs signed an MOU was to hold their commodities—including
USAID-financed commodities—at customs until an MOU was signed.

    USAID-Financed Commodities Held in Customs for the Period from
                     October 2000 through March 2002
                                                            Storage
                                             Days Held In
  Implementing Partners       Commodity                     Charges
                                               Customs
                                                              Paid
 The Asia Foundation       Ford Explorer         384         $2,407
                           Ford Explorer         384         $2,407
                           Ford Explorer         384         $2,407
                           Ford Explorer         384         $2,407
                           Radio
                                                  37         $2,079
                           Equipment
 Population Services       Ford Pickup           388         $2,438
 International             Ford Explorer         470         $2,955
 Reproductive Health
                           Ford Pickup           234         $1,348
 Association of Cambodia
 Total                                                      $18,448

Although involved in the issues raised by the proposed MOU, USAID/Cambodia
did not take an essential step to ensure compliance with the Bilateral Agreement.
USAID/Cambodia actions included reviewing the MOU and examining its effects
on USAID program and implementing partners. However, it did not directly
engage the host government to ensure that the provisions in the Bilateral
Agreement were adhered to. For example, rather than addressing the issue of
detained vehicles with the host government, in fiscal year 2000, the Mission
decided to no longer finance imported vehicles, and it instructed implementing
partners to purchase any needed vehicles with non-USAID funds or lease them
locally. A Mission official explained that because of the 1997 sanctions imposed
on Cambodia by the U. S. Congress, it made it difficult for the Mission to
approach the host government to resolve such problems.

Using USAID funds to pay storage on USAID-financed commodities that should
have been promptly released unnecessarily diverted $18,448 from being used to
provide direct program services. Similarly, program services were affected to the
extent that the confined commodities could not be used to provide those services.

USAID/Cambodia should take advantage of the tax exemption and prompt release
provisions of the Bilateral Agreement. This agreement between the U.S.
Government and the Royal Government of Cambodia—signed in 1994—provides
USAID-financed commodities with protection from taxes and protection from
unreasonable delays at port. By ensuring that all its implementing partners are
afforded these protections, the Mission can channel more funding to direct



                                                                          10
services for beneficiaries.    To this end, we are making the following
recommendations:

       Recommendation No. 1: We recommend that USAID/Cambodia
       establish an action plan—with timeframes and milestones—to work
       with the Royal Government of Cambodia to enforce the Bilateral
       Agreement’s provisions of tax exemption for and prompt release of
       USAID-financed commodities.

       Recommendation No. 2: We recommend that USAID/Cambodia
       recover taxes and storage charges totaling $49,725 from the Royal
       Government of Cambodia which were paid by the Mission’s
       implementing partners in contradiction to the provisions of the
       Bilateral Agreement.

       Recommendation No. 3: We recommend that USAID/Cambodia
       conduct a review and recover any additional taxes or unreasonable
       storage fees that its implementing partners might have paid to the
       Royal Government of Cambodia for the importation of USAID-
       financed commodities during the period from April 2002 through
       March 2003.

Related Issue

As discussed in the prior section, the Royal Government of Cambodia required
international NGOs to sign a standard MOU, taking actions such as detaining
commodities at customs to secure their cooperation. At the time of our audit
fieldwork, 11 of USAID/Cambodia’s implementing partners had signed such
MOUs.

However, the tax provisions in the standard MOU contradict the tax exemptions
afforded by the Bilateral Agreement. Specifically, the MOU allows the import of
materials, equipment, and machinery as defined in approved project proposals but
stipulates that import taxes are to be paid by the host government. This language
indicates that imported commodities are taxable, although the tax will be paid by
the RGC. In contrast, the Bilateral Agreement clearly states that commodities
imported to further U.S. programs are tax exempt.

USAID/Cambodia did not ensure that the MOUs signed by its implementing
partners were fully compatible with the Bilateral Agreement because, as noted in
the previous section of this report, the sanctions made it difficult for Mission
officials to engage the host government to resolve such problems.




                                                                          11
                 Because the standard MOU does not require that USAID’s implementing partners
                 themselves pay import taxes, there does not seem to be an immediate impact on
                 USAID-financed commodities imported into Cambodia. However, what happens
                 if the RGC decides to no longer pay the tax? Further, the RGC could attempt to
                 change the standard MOU provision to require that USAID implementing partners
                 pay taxes on imported commodities.

                 The contradictory language between the MOU and the Bilateral Agreement
                 underscores the need for Mission officials to ensure that all its implementing
                 partners are afforded the tax protections of the Bilateral Agreement when
                 importing USAID-financed commodities. We are not making a specific
                 recommendation on the issue of the contradictory language of the MOU because
                 there was no immediate impact on USAID-financed commodities, and because
                 we believe that Recommendation No. 1, if implemented, would nullify the tax
                 provisions of the MOU.


Management       In response to our draft report, USAID/Cambodia provided written comments that
                 are included in their entirety as Appendix II. Based on the Mission’s comments, a
Comments and     management decision has been reached on Recommendation No. 3. This
Our Evaluation   recommendation can be closed when the Mission provides evidence to USAID’s
                 Office of Management Planning and Innovation that the Mission has implemented
                 the necessary actions. Management decisions for Recommendation Nos. 1 and 2
                 have not yet been reached.

                 For Recommendation No. 1, USAID/Cambodia noted that the recent easing of
                 legislative restrictions for some of its programs makes it now possible for it to
                 work with Royal Government of Cambodia (RGC) to implement part of its
                 assistance program. The Mission proposes establishing a Strategic Objective
                 Grant Agreement (SOAG) for each USAID activity, where it has such approval,
                 under which it can obtain the RGC’s commitment to ensure that tax exemption
                 provisions are implemented and importation of commodities is facilitated.

                 However, the proposed tax provisions for the SOAGs would not agree with the
                 tax provisions in the Bilateral Agreement. The Mission notes that each SOAG
                 would require that the payment of taxes, duties and any other charges on USAID-
                 financed commodities would be provided for out of the RGC’s own budgetary
                 resources and made part of that government’s contribution to total program cost.
                 The Mission’s proposal reads very much like the tax language in the
                 Memorandum of Understanding (MOU) that is discussed under the “Related
                 Issue” section of this report. As noted in that section, the MOU tax language
                 indicates that USAID-financed commodities would be taxable but that the RGC
                 would pay the tax. In contrast, under the Bilateral Agreement USAID-financed
                 commodities are tax exempt. Additionally, we don’t believe that the RGC’s
                 payment of taxes, duties and other charges could be considered host country


                                                                                           12
contributions when the Bilateral Agreement exempts USAID-financed
commodities from such charges. Finally, the Bilateral Agreement was negotiated
in 1994, in part, to provide tax exemptions that USAID believed were necessary.

In a January 1994 Action Memorandum to the USAID Administrator, the
Assistant Administrator for the Asia and Near East Bureau requested
authorization to negotiate a new Bilateral Agreement with the RGC, in part, to
secure appropriate tax exemption guarantees.         Specifically, the Action
Memorandum noted that since USAID assistance including commodities to
Cambodia would be provided through grantees and contractors, tax exemption for
U.S. Government-financed goods and services must be guaranteed, something
which the 1971 Bilateral Agreement did not provide. The Action Memorandum
also stated that while Limited Scope Grant Agreements (the precursors to
SOAGs) with standard tax exemption provisions had been signed, the provisions
gave only minimal assurances and were limited to those activities falling under
the agreements.

Automated Directives System, Chapter 350, Grants to Foreign Governments,
contains a mandatory standard provision providing comprehensive exemptions for
USAID-financed commodities from taxes and customs duties. Chapter 350 states
that the standard provision should be used unless “post practice” provides more in
the way of exemptions. We believe that the Bilateral Agreement represents what
USAID intended to be the “post practice”. In either case, both the standard
provision and the Bilateral Agreement provide more comprehensive tax
exemptions than what the Mission seems to be proposing. Further, the Bilateral
Agreement addresses prompt release of U.S. Government-financed commodities
whereas the Mission’s proposed actions do not address this issue.

Since USAID felt it needed the tax exemption and prompt release provisions
negotiated in 1994, we still believe that the Mission should work with the RGC to
enforce the Bilateral Agreement’s provisions of tax exemption for and prompt
release of USAID-financed commodities, unless the Mission can provide
adequate justification for not enforcing the Bilateral Agreement.            This
recommendation remains open pending agreement with the Mission.

For Recommendation No. 2, USAID/Cambodia stated that the draft report did not
specify which taxes were paid, by whom, and on what dates. The Mission added
that it was unable to respond to the recommendation without the detailed
information on which the $49,725 is based, and without then engaging the
relevant grantees/recipients. While the audit report may not have provided all the
information the Mission felt it needed, it does identify the affected commodities
and the implementing partners that paid taxes and storage costs on those
commodities. Those implementing partners had the relevant documentation as
the RIG/Manila auditor worked closely with them. Additionally, when the
Mission asked for more time to respond to the draft report, it did not cite a lack of


                                                                              13
information as the reason why more time was needed. We are, however,
providing additional information in Appendix III. This recommendation remains
open pending agreement with the Mission.

As for Recommendation No. 3, USAID/Cambodia stated it had initiated a review
to determine whether any additional taxes or storage fees were paid by its
implementing partners during the period from April 2002 to March 2003. The
Mission also stated that it would take appropriate action if any taxes or storage
charges were paid during the period. Based on the Mission’s comments, a
management decision has been reached.




                                                                          14
                                                                                    Appendix I


Scope and     Scope
Methodology
              RIG/Manila conducted this audit in accordance with generally accepted
              government auditing standards. The purpose of this audit was to determine
              whether USAID/Cambodia ensured that USAID-financed commodities were tax
              exempt and promptly released from Cambodian customs during the period from
              October 2000 to March 2002. The audit covered USAID-financed commodities
              imported into Cambodia, but not commodities purchased in Cambodia. Our on-
              site fieldwork was conducted at USAID/Cambodia in Phnom Penh and at 20 of its
              implementing partners between September 23 and October 11, 2002. In addition,
              we communicated with implementing partners over the period from October 2002
              to February 2003.

              We obtained an understanding of and assessed the management controls used by
              USAID/Cambodia to ensure that USAID-financed commodities were tax exempt
              and promptly released from customs. Our work included interviewing cognizant
              Mission officials, reviewing the Mission’s most recent self-assessment of its
              compliance with the Federal Manager’s Financial Integrity Act of 1982,
              reviewing Mission and U.S. Government agreements with the Royal Government
              of Cambodia (RGC), the RGC Memorandum of Understanding with international
              NGOs, and reviewing other documentation and correspondence relative to the
              Mission’s policies, procedures and actions to ensure that USAID-financed
              commodities were tax exempt and promptly released from customs.

              Methodology

              Prior to conducting our fieldwork, we developed a standard questionnaire which
              we sent to all USAID/Cambodia implementing partners. The questionnaire
              requested implementing partners to report any instances where taxes were paid on
              imported USAID-financed commodities and any instances where such
              commodities were held more than 30 days in customs. Additionally, the
              questionnaire asked implementing partners to report any adverse programmatic
              impact from any payment of taxes or customs delays. Some implementing
              partners did not initially respond to the questionnaire, but in those cases we did
              follow-up interviews.

              At USAID/Cambodia, we interviewed responsible officials and reviewed relevant
              documentation such as Mission and U.S. Government agreements with the RGC,
              Mission agreements with implementing partners, and other documentation and
              correspondence related to the Mission’s policies, procedures and actions to ensure
              that USAID-financed commodities were tax exempt and promptly released from
              customs.


                                                                                         15
We visited all but one of USAID/Cambodia’s implementing partners and
interviewed responsible officials. For those implementing partners that responded
to the questionnaire, we reviewed documentation that supported those answers.
For those implementing partners that did not respond, we obtained the
documentation needed to answer the questionnaire. We also reviewed other
documentation at the implementing partners such as agreements and
correspondence with USAID and the RGC related to the import of USAID-
financed commodities.

We judged that if 5 percent or less of implementing partners had paid taxes on or
incurred customs delays on USAID-financed commodities, it would result in an
unqualified (positive) opinion. If between 5 and 10 percent had paid taxes or
incurred customs delays, the opinion would be qualified (both positive and
negative findings). If 10 percent or more had paid taxes or incurred customs
delays, it would result in adverse (negative) opinion. We used these rather
stringent materiality thresholds, considering the absolute requirements contained
in the Bilateral Agreement and the conflicting policies and actions of the RGC
regarding commodities brought into Cambodia by international NGOs.




                                                                          16
                                                                                           Appendix II

Management
Comments



                                   United States Agency for International
                                                 Development
                                              Phnom Penh, Cambodia


                                     MEMORANDUM

   TO:            Bruce Boyer, RIG/Manila            DATE:         June 4, 2003



   FROM:          Lisa Chiles, USAID/Cambodia REF:          Boyer/Chiles Transmittal
                  Mission Director /s/                      Memo dated April 28, 2003
   SUBJECT:       Audit of USAID/Cambodia’s Monitoring of USAID-Financed Commodities
                  Held in Customs (Report No. 5-442-03-XXX-P)

  We very much appreciate the opportunity to comment on the subject draft audit report. We share
  your interest in ensuring adherence to the terms of the 1994 Bilateral Agreement between the U.S.
  Government (USG) and the Royal Government of Cambodia (RGC), the tax exemption and prompt
  release provisions in particular.

  There are a number of statements in the draft report which we plan to address, particularly those
  which comment on what USAID/Cambodia is said to have done or not done regarding the apparent
  payment of taxes and storage fees by USAID recipients and non-enforcement of the US-Cambodia
  Bilateral Agreement. It is difficult to reply, however, because the draft report does not specify
  which taxes were paid, by whom, and on what dates. We need that information to enable us not
  only to fairly respond to whether the Mission performed adequately and reasonably regarding this
  issue, but also to determine allowability of the questioned costs under the relevant individual grants
  and cooperative agreements.

  To my knowledge, USAID has always been responsive to inquiries or requests for assistance from
  our partner organizations regarding the subject of taxes. It should be noted that the primary
  responsibility for avoiding the payment of taxes for which an exemption is available is with the
  grantee or recipient (see OMB Circular A-122, attachment B, section 51, “Taxes”). In other words,
  if the host government attempts to assess a tax for which an exemption is available, it is incumbent
  upon the USAID grantee or recipient to attempt to avoid paying such a tax, including seeking


                                                                                                  17
    USAID’s assistance if necessary. Similarly, regarding the Memoranda of Understanding (MOUs)
    which the Cambodian government has requested non-governmental organizations (NGOs) to sign,
    while USAID was actively involved in reviewing draft form MOUs and in counseling NGOs in
    Cambodia regarding this subject (including highlighting the existence and effect of the Bilateral
    Agreement), so far as I know, no USAID grantee or recipient requested USAID to clear off on a
    final MOU they were asked to sign. We are reviewing our files on this latter point, but suffice it to
    say that USAID would never have counseled an NGO to sign an MOU which contained provisions
    contrary to our Bilateral Agreement with the host government. In fact our guidance to our NGO
    partners, when we were engaged in discussions about the whole MOU process early on, was exactly
    to the contrary.

    Recommendation No. 1: That USAID/Cambodia establish an action plan—with timeframes
    and milestones—to work with the RGC to enforce the Bilateral Agreement’s provisions of tax
    exemption for and prompt release of USAID-financed commodities.

    Mission Response: The recent easing of legislative restrictions related to HIV/AIDS, infectious
    diseases, maternal and child health, anti-trafficking and basic education makes it now possible for
    the USAID Mission to work with RGC again in the implementation of part of our assistance
    program. USAID/Cambodia’s plan is to establish a Strategic Objective Agreement (SOAG) for
    each USAID activity, where we have such approval, with the respective line ministries within the
    central government. Under a SOAG, which is the commitment of both the USG and the host
    government to implement a specific activity, we can obtain RGC ministry commitment to ensure
    tax exemption provisions are implemented and facilitate importation of commodities.

We also plan to develop and adopt a Mission Order on the preparation of SOAGs that would require
every SOAG to specify an estimated amount of taxes, duties and any other charges associated with the
importation of USAID-financed commodities into Cambodia to be provided for out of RGC’s own
budgetary resources and made part of the government contribution to the total program cost. The RGC
contribution shall be included in the Financial Plan which is an integral part of the SOAG. We
anticipate drafting and adopting the Mission Order within the next six months.

With respect to establishing SOAGs for each USAID activity, we have already initiated action on this
plan. Our first SOAG, which was signed on May 2, 2003, is with the Ministry of Education under the
Basic Education program. Our timeframe for the rest of the USAID program is as follows:

For HIV/AIDS and Health—the SOAG with the Ministry of Health target date is July 2003.
For Anti-trafficking program—the SOAG with the Ministry of Women’s Affairs is under consideration
after the national election in July.
For Democracy portfolio—the SOAG will be developed as soon as Congressional approval is received
to work directly with the respective Ministries of the Cambodian government, including the Ministries
of Commerce, Justice, and Interior.

Based on the above discussion, we request your concurrence that a management decision has been
reached with respect to Recommendation No. 1.



                                                                                                   18
Recommendation No. 2: That USAID/Cambodia recover taxes and storage charges totaling
$49,725 from the RGC which were paid by the Mission’s implementing partners in contradiction
to the provisions of the Bilateral Agreement.

Mission Response: The Mission is unable to respond to this recommendation without the detailed
information on which the $49,725 is based, and without then engaging the relevant grantees/recipients to
determine the circumstances under which each payment was made. At the conclusion of that review, the
Mission would be in a better position to make decisions regarding all such payments, which could
include disallowing certain payments and recovering the disallowed amounts from the grantee or
recipient which paid them or from the Cambodian government, if appropriate.

Recommendation No. 3: That USAID/Cambodia conduct a review and recover any additional
taxes or unreasonable storage fees that its implementing partners might have paid to the RGC for
the importation of USAID-financed commodities during the period from April 2002 through
March 2003.

Mission Response: As requested, we have initiated a review to determine if any additional taxes or
storage fees were paid by our implementing partners during the period from April 2002 through March
2003. If any additional taxes and storage charges were paid, the Mission will take the appropriate action
as discussed in Recommendation No. 2 above. Based on this action, we request your concurrence that a
management decision has been reached with respect to Recommendation No. 3.




                                                                                                   19
(This page intentionally left blank)




                                       20
                                                                                                                                                                                                                                            Appendix III


                                        Summary of Taxes and Storage Charges Paid on USAID-Financed Commodities for the Period from October 2000 to March 2002

         A                          B              C                 D              E               F                 G             H                   I              J            K           L            M               N                                  O
    Implementing              Commodity      Purchase Price     Date Arrived   Date Cleared    Days Held in      Storage         Demurrage        Over Stockage      Import     Specific Tax   Value     Other Taxes   Total Taxes and     Implementing Partners' Payment Documents
      Partners                                                    At Port                       Customs          Charges                             Taxes            Taxes        10%         Added                   Storage Charges
                                                                                                                                                                                               Taxes
The Asia Foundation   Ford Explorer                $26,750        01/05/2001      01/25/2002            384               $602           $1,805                                                                                   $2,407 Check 47755 ($8,976) dated 1/16/02
                      Ford Explorer                $27,450        01/05/2001      01/25/2002            384               $602           $1,805                                                                                   $2,407 Check 8895 ($651) dated 1/30/02
                      Ford Explorer                $27,450        01/05/2001      01/25/2002            384               $602           $1,805                                                                                   $2,407 Same as above
                      Ford Explorer                $27,450        01/05/2001      01/25/2002            384               $602           $1,805                                                                                   $2,407 Same as above
                      Radio Equipment              $62,959        02/12/2001      03/22/2001             37           $2,079                                                                                                      $2,079 Airbill No. 20348 ($2,079) paid 4/11/2001

Population Services   Ford Pickup                  $27,650        01/22/2001      02/14/2002            388           $1,280             $1,158                                                                                   $2,438 Check 187815 ($4,000) dated 23/01/02
International         Ford Explorer                $26,750        11/01/2000      02/14/2002            470           $1,551             $1,404                                                                                   $2,955 Check 187861 ($1,393) dated 2/20/02

Reproductive Health   Ford Pickup                  $25,920        01/17/2001      09/08/2001            234               $715             $633             $3,886     $3,369        $2,583     $3,389        $2,084             $16,659 Check 9317 ($12,624) dated 8/21/01
Association of                                                                                                                                                                                                                           Check 9393 ($3,535) dated 9/7/01
Cambodia                                                                                                                                                                                                                                 Spreadsheet provided to auditor ($500)

                      Ford Explorer                $21,450                                                0                                                            $2,506        $1,921     $2,114           $8               $6,549 Customs Form 219379 dated 9/21/01
                      Ford Explorer                $21,450                                                0                                                            $2,506        $1,921     $2,114           $8               $6,549 Customs Form 219583 dated 9/21/01
                      Medical Equipment            $10,803                                                0                                                            $1,517                   $1,351                            $2,868 Spreadsheet provided to auditor ($2,868)

Totals                                            $306,082                                                            $8,033            $10,415             $3,886     $9,898        $6,425     $8,968        $2,100             $49,725



                                               Summary:          Columns:                                                        Summary:           Columns:
                                                Storage                                                                            Taxes
                                                Charges


                                                       $8,033       (G)                                                                 $3,886         (I)
                                                    $10,415         (H)                                                                 $9,898         (J)
                      Total                         $18,448                                                                             $6,425         (K)
                                                                                                                                        $8,968         (L)
                                                                                                                                        $2,100        (M)
                                                                                                              Total                  $31,277




                                                                                                                                                                                                                                                                                     21
